OIG Investigative Reports, Former Employee Sentenced to 33 Months in Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
September 10, 2003
Contact
Public Affairs
Channing Phillips
(202) 514-6933
Former Employee Sentenced to 33 Months in Prison for Her Role in Stealing $162,000 from the Department of Education
Washington, D.C. - United States Attorney Roscoe C. Howard, Jr., Assistant Director of the FBI's Washington Field Office Michael A. Mason and John P. Higgins, Inspector General for Department of Education, announced that United States District Judge Paul L. Friedman today sentenced Silvader Denise Estep, 49, of Fort Washington, Maryland, to 33 months of incarceration and three years of supervised release for conspiring to defraud the government.  Estep pled guilty in February of this year to the charge of conspiracy for her role in a scheme to steal $162,000 from the Department of Education.  Judge Friedman also ordered Estep to pay restitution of $146,977.  In calculating the sentence, Judge Friedman agreed with the government that Estep occupied a position of trust, that she was a manager or supervisor in a criminal enterprise with five participants, and that she misrepresented that she was acting on behalf of a government agency.
According to the evidence presented at the sentencing hearing, from 1996 through 1999, Department of Education employees Estep and co-defendant Jean Williams Stancell stole property and money in the total amount of approximately $162,000 from Department of Education ("Education") by charging goods and services for themselves and others on government-issued purchase cards.  During the conspiracy, Stancell and Estep both worked for the Quality Workplace Group ("QWG") at Education.  QWG was the facilities management component of Education.  Its mission was to hire contractors to perform maintenance work at Education buildings and to purchase furniture and office supplies for Education employees.  Education issued VISA purchase cards to certain QWG employees in order for them to pay for goods and services.   Education developed the following procedures to prevent fraudulent use of purchase cards: employees were required to obtain invoices from contractors and vendors when possible, maintain logs of charges, reconcile monthly statements logs, and certify, under penalty of 18 U.S.C. § 1001, that the charges were legitimate.
Estep and Stancell approached various vendors of Education and asked them to charge the government-issued purchase cards for work performed for the benefit of themselves and their associates. At times, Estep asked a vendor to charge a government-issued purchase card without doing any work, but to give her the majority of the cash generated by charging the government.  In order to disguise the theft, Estep asked others to create false invoices. Stancell asked a vendor for money in exchange for work orders from Education.  Later, Stancell suggested that this vendor make false statements to the grand jury.
Also as part of this investigation, two employees of one of the vendors pleaded guilty and have been sentenced.  Christopher Griffin, 38, of Dale City, Virginia, pleaded guilty to Theft of Government Property (misdemeanor) on December 12, 2001, and was sentenced to three years of probation on May 30, 2003; Robert Banks, 36, of Springfield, Virginia, pleaded guilty to Theft of Government Property (misdemeanor) on September 12, 2001, and was sentenced to three years probation on May 9, 2002.  Jean Williams Stancell, 54, of Fort Washington, Maryland, pleaded guilty to Conspiracy on January 22, 2003, and awaits sentencing.  Co-conspirator  James Barksdale, 59, of Fort Belvoir, Virginia, pleaded guilty to Conspiracy on May 22, 2002; his sentencing is pending.
In announcing the results of this investigation, United States Attorney Howard and Inspector Higgins commended the Federal Bureau of Investigation and Education's Office of Inspector General, in particular, Special Agents Lauren LeMay and George Blissman.  In addition, they praised Paralegal Specialist Jeanie Latimore-Brown, Legal Assistant April Peeler, and Auditor Sandra Henderson.  They also commended former Assistant U.S. Attorneys Ann Rosenfield and Elizabeth Coombe, and Assistant U.S. Attorney Virginia Cheatham.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov